HHS/OIG, Audit - "Audit of the Pension Plan at a Terminated Medicare Contractor, Hawaii Medical Service Association,"(A-07-02-03034)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Hawaii
Medical Service Association," (A-07-02-03034)
May 13, 2003
Complete
Text of Report is available in PDF format (756 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to evaluate Hawaii Medical Service Association's
(HMSA) compliance with the pension segmentation requirements of its Medicare
contract and to determine the excess assets that should be remitted to Medicare
as a result of the termination of the Medicare contractual relationship effective
June 30, 1999.   We computed excess Medicare pension assets
of $456,481 as of January 1, 2000.  In our opinion, the excess pension
assets were the result of HMSA terminating the Medicare program and transferring
all remaining Medicare liabilities out of the Medicare segment.  We recommended
HMSA remit the $456,481 of excess Medicare pension assets resulting from the
termination of its Medicare contract to the Federal Government.